Case: iy-3bU3b, U3/3U/2U2U, IU: 11b4by24, Ukttntry: 14, Hage 1 ot 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 30 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ZACHARY M. ENSLOW,
Plaintiff-Appellant,
v.
STATE OF WASHINGTON; STATE
ATTORNEY GENERAL,

No. 19-36036
D.C. No. 3:19-cv-05650-RBL
Western District of Washington,
Tacoma
ORDER

Defendants-Appellees.
Before: TASHIMA, FRIEDLAND, and MILLER, Circuit Judges.
Upon a review of the record, the response to the order to show cause, and the
opening brief received on February 3, 2020, we conclude this appeal is frivolous.
We therefore deny appellant’s motion to proceed in forma pauperis (Docket Entry
No. 3), see 28 U.S.C. § 1915(a), and dismiss this appeal as frivolous, pursuant to
28 U.S.C. § 1915(e)(2) (court shall dismiss case at any time, if court determines it
is frivolous or malicious).
All other pending motions are denied as moot.
DISMISSED.

Case: iy-3bU3b, Ub/U4/2(J2U, IL): 11 /Ybb11, Ukthntry: 1 (, Page 1 ot 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 4 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ZACHARY M. ENSLOW,
Plaintiff-Appellant,
v.

STATE OF WASHINGTON; STATE
ATTORNEY GENERAL,

No. 19-36036
D.C. No. 3:19-cv-05650-RBL
Western District of Washington,
Tacoma
ORDER

Defendants-Appellees.
Before: TASHIMA, FRIEDLAND, and MILLER, Circuit Judges.
The motion for reconsideration en banc (Docket Entry No. 15) is denied on
behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord. 6.11.
All other pending motions are denied as moot.
No further filings will be entertained in this closed case.

Case 3:19-cv-05650-RBL Document 7 Filed 10/07/19 Page 1 of 1

1

HONORABLE RONALD B. LEIGHTON

2
3
4
5
6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

7
8

ZACHARY M. ENSLOW,

CASE NO. C19-5650RBL

9
Plaintiff,
10
11

v.

ORDER DISMISSING FOR LACK OF
FILING FEE AND/OR AMENDED
COMPLAINT

WASHINGTON STATE and
ATTORNEY GENERAL,

12
Defendants.
13
14
15
16

The Court entered an Order Adopting Report and Recommendation Denying Plaintiffs
Application for In Forma Pauperis [Dkt. #6] on September 6, 2019. Plaintiff was directed to
pay the filing fee within 21 days of the date of that Order or file an amended complaint,
otherwise this action would be dismissed. More than 21 days have passed since the filing of the

17
18
19

Order Adopting Report and Recommendation Denying Plaintiffs Application for In Forma
Pauperis and the filing fee has not been paid, nor an amended complaint filed.
ACCORDINGLY, IT IS ORDERED that this cause of action is DISMISSED.
Dated this 7th day of October, 2019.

20
21
Ronald B. Leighton
United States District Judge

22
23
24
ORDER DISMISSING FOR LACK OF FILING
FEE AND/OR AMENDED COMPLAINT - 1

Case 3:19-cv-05650-RBL Document 6 Filed 09/06/19 Page 1 of 1

1
2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

5
6
7
8

ZACHARY M ENSLOW,
No. 3:19-CV-05650-RBL
Plaintiff,
ORDER ADOPTING REPORT AND
RECOMMENDATION

v.

9
WASHINGTON STATE,
10

Defendant.

11
12
13
14
15

THIS MATTER is before the Court the Report and Recommendation of Magistrate Judge
David W. Christel [Dkt. # 5], and the underlying record.
(1)

The Report and Recommendation is ADOPTED.

(2)

Enslow’s Application to Proceed in forma pauperis [Dkt. # 1] is DENIED.

(3)

Plaintiff is directed to pay the filing fee or file a proposed amended complaint

16
17
18
19
20
21
22
23

within 21 days of the date of this order. If Plaintiff does not pay the filing fee or file a severable
proposed amended complaint, this case be dismissed without prejudice.
The Clerk shall send copies of this Order to Enslow’s last known address and to
Magistrate Judge Christel.
IT IS SO ORDERED.
DATED this 6th day of September, 2019.

24
25
26

Ronald B. Leighton
United States District Judge
ORDER ADOPTING REPORT AND RECOMMENDATION- 1

Case 3:19-cv-05650-RBL Document 5 Filed 08/20/19 Page 1 of 7

1
2
3
4
5
6
7
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

8
9
10

ZACHARY M ENSLOW,

11
12
13
14
15
16
17
18
19
20
21
22

Plaintiff,

CASE NO. 3:19-CV-05650-RBL
REPORT AND RECOMMENDATION

v.
WASHINGTON STATE,

Noting Date: September 6, 2019
Defendant.
Plaintiff Zachary M. Enslow, proceeding pro se, filed this action pursuant to 42 U.S.C. §
1983. The District Court has referred Plaintiffs pending Application to Proceed In Forma
Pauperis (“IFP”) and Proposed Complaint to United States Magistrate Judge David W. Christel
pursuant to Amended General Order 02-19.
Having reviewed and screened Plaintiffs Proposed Complaint under 28 U.S.C. §
1915(e)(2), the Court finds Plaintiff has failed to state a claim for which relief can be granted.
Thus, considering the deficiencies in the Proposed Complaint, the undersigned recommends the
Court deny Plaintiffs Application to Proceed IFP (Dkt. 1) and direct Plaintiff to pay the filing

23
24

REPORT AND RECOMMENDATION -1

Case 3:19-cv-05650-RBL Document 5 Filed 08/20/19 Page 2 of 7

1

fee or file a proposed amended complaint within 21 days of the Order addressing this Report and

2 Recommendation (“R&R”).
3

I.

4

Plaintiff alleges that, on or about February 3, 2015, he was arrested for crimes he was

Background

5 falsely accused of committing and thereafter incarcerated for six months on the pending charges.
6 See Dkt. 1-1, p. 10. Plaintiff alleges there was “no thorough” investigation into the criminal
7 charges against him and he was acquitted of the charges against him after a jury found him not
8 guilty. See id. at pp. 9-11. Plaintiff maintains that, based on these allegations, the State of
9 Washington and Washington State Attorney General violated his rights under “all 27
10 Amendments” to the United States Constitution. See id. at pp. 7-9. Plaintiff seeks $10 million in
11

damages. See id. at p. 11.

12

II.

13

The district court may permit indigent litigants to proceed IFP upon completion of a

Discussion

14 proper affidavit of indigency. See 28 U.S.C. § 1915(a). However, the “privilege of pleading in
15 forma pauperis ... in civil actions for damages should be allowed only in exceptional
16 circumstances.” Wilborn v. Escalderon, 789 F.2d 1328 (9th Cir. 1986). The Court has broad
17 discretion in denying an application to proceed IFP. Weller v. Dickson, 314 F.2d 598 (9th Cir.
18
19

1963), cert, denied 375 U.S. 845 (1963).
Notwithstanding IFP status, the Court must subject each civil action commenced pursuant

20 to 28 U.S.C. § 1915(a) to mandatory screening and order the sua sponte dismissal of any case
21

that is “frivolous or malicious,” “fails to state a claim on which relief may be granted,” or “seeks

22 monetary relief against a defendant who is immune from such relief.” 28 U.S.C. § 1915(e)(2)(B);
23 see also Calhoun v. Stahl, 254 F.3d 845, 845 (9th Cir. 2001) (“[T]he provisions of 28 U.S.C. §
24

REPORT AND RECOMMENDATION - 2

Case 3:19-cv-05650-RBL Document 5 Filed 08/20/19 Page 3 of 7

1

1915(e)(2)(B) are not limited to prisoners.”); Lopez v. Smith, 203 F.3d 1122, 1126-27 (9th Cir.

2 2000) (en banc) (noting that 28 U.S.C. § 1915(e) “not only permits but requires” the court to sua
3 sponte dismiss an IFP complaint that fails to state a claim). An IFP complaint is frivolous if “it
4 ha[s] no arguable substance in law or fact.” Tripati v. First Nat’l Bank & Trust, 821 F.2d 1368,
5

1369 (9th Cir. 1987) (citing Rizzo v. Dawson, 778 F.2d 527, 529 (9th Cir. 1985); see also

6 Franklin v. Murphy, 745 F.2d 1221, 1228 (9th Cir. 1984).
7

A pro se plaintiffs complaint is to be construed liberally, but like any other complaint it

8 must nevertheless contain factual assertions sufficient to support a facially plausible claim for
9 relief. Ashcroft v. Iqbal, 556 U.S. 662, 678, (2009) (citing Bell Atlantic Corp. v. Twombly, 550
10 U.S. 544, 570 (2007)). A claim for relief is facially plausible when “the plaintiff pleads factual
11

content that allows the court to draw the reasonable inference that the defendant is liable for the

12 misconduct alleged.” Iqbal, 556 U.S. at 678.
13

Unless it is clear a pro se plaintiff cannot cure the deficiencies of a complaint, the Court

14 will provide the pro se plaintiff with an opportunity to amend the complaint to state a plausible
15

claim. See United States v. Corinthian Colleges, 655 F.3d 984, 995 (9th Cir. 2011) (“Dismissal

16 without leave to amend is improper unless it is clear, upon de novo review, that the complaint
17 could not be saved by any amendment.”).
18

A. Failure to State a Claim

19

Plaintiffs Proposed Complaint suffers from deficiencies requiring dismissal if not

20 corrected in an amended complaint. As stated above, the Court is required to liberally construe
21 pro se documents. See Estelle v. Gamble, 429 U.S. 97, 106 (1976). However, Federal Rule of
22 Civil Procedure 8 requires a complaint to contain “a short and plain statement of the claim
23
24

REPORT AND RECOMMENDATION - 3

Case 3:19-cv-05650-RBL Document 5 Filed 08/20/19 Page 4 of 7

1

showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a). “Each allegation must be

2 simple, concise, and direct.” Fed. R. Civ. P. 8(d).
3

Here, Plaintiffs Proposed Complaint does not contain a plain statement showing he is

4 entitled to relief. Plaintiff broadly asserts his rights were violated because he was incarcerated
5 pending trial for crimes he did not commit. See Dkt. 1-1, p. 10. However, Plaintiffs bare
6 allegation that he was arrested and incarcerated for crimes he did not commit fails to articulate a
7 plausible claim that Defendants violated any of his constitutional rights. Further, although
8 Plaintiff claims the investigation into the criminal charges against him was not “thorough,” he
9 provides no specifics on how the investigation was inadequate such that it violated his rights.
10 Plaintiffs conclusory allegations therefore fail to support his broad, vague claims that
11
12
13

Defendants violated his rights under all 27 constitutional amendments.
Additionally, Plaintiff names the State of Washington as a Defendant. Dkt. 1-1. Section
1983 applies to the actions of “persons” acting under the color of state law. The State of

14 Washington is not a “person” for purposes of a § 1983 civil rights action, Will v. Michigan Dep’t.
15

of State Police, 491 U.S. 58, 65, 71 (1989), and cannot be sued under § 1983. Accordingly, the

16 undersigned finds Plaintiff has failed to state a cognizable claim under § 1983 against the State
17 of Washington.
18

In sum, Plaintiff has failed to provide clarity regarding the nature of his claims sufficient

19 to show what happened, when it happened, who was involved, and how those acts violated his
20 rights. Plaintiff has not stated a short and plain statement of a claim showing he is entitled to
21

relief. See Iqbal, 556 U.S. at 678 (2009) (a pleading must be more than an “unadorned, the-

22 defendant-unlawfully-harmed-me accusation”); see also Twombly, 550 U.S. at 545 (to state a
23
24

REPORT AND RECOMMENDATION - 4

Case 3:19-cv-05650-RBL Document 5 Filed 08/20/19 Page 5 of 7

1

claim for relief, “[f]actual allegations must be enough to raise a right to relief above the

2 speculative level”).
3

B. Statute of Limitations

4

In the Proposed Complaint, Plaintiff alleges he was unlawfully incarcerated for six

5 months, beginning February 3, 2015. Dkt. 1-1, pp. 10-11.
6

A complaint must be timely filed. The Civil Rights Act, 42 U.S.C. § 1983, contains no

7 statute of limitations. “Thus, the federal courts [] apply the applicable period of limitations under
8 state law for the jurisdiction in which the claim arose.” Rose v. Rinaldi, 654 F.2d 546, 547 (9th
9 Cir. 1981). In Rose, the Ninth Circuit determined the three-year limitations period identified in
10 Revised Code of Washington 4.16.080(2) is the applicable statute of limitations for § 1983 cases
11
12
13

in Washington. 654 F.2d at 547; see R.C.W. § 4.16.080(2).
The Court also applies the forum state’s law regarding equitable tolling for actions
arising under § 1983. Jones v. Blanas, 393 F.3d 918, 927 (9th Cir. 2004). In Washington, courts

14 permit equitable tolling “when justice requires.” Millay v. Cam, 135 Wash.2d 193, 206 (1998).
15 “The predicates for equitable tolling are bad faith, deception, or false assurances by the
16 defendant and the exercise of diligence by the plaintiff.” Id. Courts “typically permit equitable
17 tolling to occur only sparingly, and should not extend it to a garden variety claim of excusable
18 neglect.” State v. Robinson, 104 Wash.App. 657, 667 (2001) (internal quotations omitted).
19 Washington State also allows for a tolling period when a person is imprisoned on a criminal
20 charge prior to sentencing. See R.C.W. § 4.16.190; see also Williams v. Holevinski, 2006 WL
21
22

216705, *2 (E.D. Wash. July 31, 2006).
Although the statute of limitations is an affirmative defense which normally may not be

23 raised by the Court sua sponte, it may be grounds for sua sponte dismissal of an in forma
24

REPORT AND RECOMMENDATION - 5

Case 3:19-cv-05650-RBL Document 5 Filed 08/20/19 Page 6 of 7

1 pauperis complaint where the defense is complete and obvious from the face of the pleadings or
2 the Court’s own records. See Franklin v. Murphy, 745 F.2d 1221, 1228-30 (9th Cir. 1984).
3

Plaintiff alleges that he was unlawfully incarcerated for six months, beginning February

4 3, 2015. Dkt. 1-1, pp. 10-11. Based on the allegations contained in the Proposed Complaint,
5 Plaintiff had actual notice of the facts related to the claims alleged on February 3, 2015 (or at the
6 latest, six months later, on August 3, 2015). See id. \ Kimes v. Stone, 84 F.3d 1121, 1128 (9th Cir.
7

1996) (a claim accrues when the plaintiff knows or has reason to know of the injury which is the

8 basis of the action); see also R.C.W. § 4.16.190. Taking the latest date possible, the time for
9 filing a lawsuit expired approximately August 3, 2018, three years after Plaintiff was released
10 from his alleged wrongful imprisonment. See Dkt. 10. Plaintiff filed the Proposed Complaint on
11

July 15, 2019, nearly one year after the last possible date the statute of limitations expired. See

12 Dkt. 1-1. Plaintiff has not alleged facts showing statutory or equitable tolling is applicable in this
13

case. See Dkt. 1-1. As such, Plaintiff has failed to state a claim for which relief can be granted in

14 this action.
15

III.

Conclusion

16

For the above stated reasons, the undersigned recommends the Court deny the

17 Application to Proceed In Forma Pauperis (Dkt. 1). The undersigned recommends Plaintiff be
18 directed to pay the filing fee or file a proposed amended complaint within 21 days of the order
19 addressing this R&R. If Plaintiff does not pay the filing fee or file a severable proposed amended
20 complaint, the Court recommends this case be dismissed without prejudice.
21

Pursuant to 28 U.S.C. § 636(b)(1) and Fed. R. Civ. P. 72(b), the parties shall have

22 fourteen (14) days from service of this Report to file written objections. See also Fed. R. Civ. P.
23

6. Failure to file objections will result in a waiver of those objections for purposes of de novo

24

REPORT AND RECOMMENDATION - 6

Case 3:19-cv-05650-RBL Document 5 Filed 08/20/19 Page 7 of 7

1

review by the district judge. See 28 U.S.C. § 636(b)(1)(C). Accommodating the time limit

2 imposed by Fed. R. Civ. P. 72(b), the clerk is directed to set the matter for consideration on
3
- 4

September 6, 2019, as noted in the caption.
Dated this 20th day of August, 2019.

5
6
David W. Christel
United States Magistrate Judge

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

REPORT AND RECOMMENDATION - 7

Case 3:19-cv-05650-RBL Document 5-1 Filed 08/20/19 Page 1 of 1

1
2
3
4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA

5
6
7

ZACHARY M ENSLOW,
No. 3:19-CV-05650-RBL
Plaintiff,

8

v.

ORDER ADOPTING REPORT AND
RECOMMENDATION

9
WASHINGTON STATE,
10

Defendant.

11
THIS MATTER is before the Court the Report and Recommendation of Magistrate Judge

12
13

David W. Christel [Dkt. # 5], Plaintiff Enslow’s Objections [Dkt. #

14

record.

15

], and the underlying

(1)

The Report and Recommendation is ADOPTED.

(2)

Enslow’s Application to Proceed in forma pauperis [Dkt. # 1] is DENIED.

(3)

Plaintiff is directed to pay the filing fee or file a proposed amended complaint

16
17
18
19
20
21
22
23

within 21 days of the date of this order. If Plaintiff does not pay the filing fee or file a severable
proposed amended complaint, this case be dismissed without prejudice.
The Clerk shall send copies of this Order to Enslow’s last known address and to
Magistrate Judge Christel.
IT IS SO ORDERED.

24
DATED this

day of

, 2019.

25
26

RONALD B. LEIGHTON
United States District Judge
ORDER ADOPTING REPORT AND RECOMMENDATION- 1

Additional material
from this filing is
available in the
Clerk's Office.

